                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00904-226


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

  Bay Pines VA Healthcare System 

         Bay Pines, Florida 





August 8, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                            CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         womens’ health




VA OIG Office of Healthcare Inspections
                                   CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of May 12, 2014, at the following
CBOCs which are under the oversight of the Bay Pines VA Healthcare System and
Veterans Integrated Service Network 8:

    Bradenton CBOC, Bradenton, FL

    Palm Harbor CBOC, Palm Harbor, FL

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care and Designated Women’s Health Providers’ Proficiency reviews.
However, we made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Registered Nurse Care Managers receive motivational interviewing and health
      coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation at each episode of care where the newly
      prescribed fluoroquinolone was administered, prescribed, or modified.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–19, for the full text of the Directors’ comments.) We will follow up on
planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D.
                                                        Assistant Inspector General for

                                                           Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                       i
                               CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were conducted at randomly selected CBOCs that had not
been previously inspected.1 Details of the targeted study populations for the AUD, MM,
and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                               CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                    CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Bradenton and
Palm Harbor CBOCs. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 2. EOC

 NM                     Areas Reviewed                                     Findings
        The CBOC’s location is clearly identifiable
        from the street as a VA CBOC.
        The CBOC has interior signage available that
        clearly identifies the route to and location of
        the clinic entrance.
        The CBOC is Americans with Disabilities Act
        accessible.
        The furnishings are clean and in good repair.
        The CBOC is clean.
        The CBOC maintains a written, current
        inventory of hazardous materials and waste
        that it uses, stores, or generates.
        An alarm system and/or panic buttons are
        installed and tested in high-risk areas (e.g.,
        MH clinic).
        Alcohol hand wash or soap dispenser and
        sink are available in the examination rooms.
        Sharps containers are secured.
        Safety needle devices are available.
        The CBOC has a separate storage room for
        storing medical (infectious) waste.
        The CBOC conducts fire drills at least every
        12 months.
        Means of egress from the building are
        unobstructed.
        Access to fire alarm pull stations is
        unobstructed.
        Access to fire extinguishers is unobstructed.
        The CBOC has signs identifying the locations
        of fire extinguishers.
        Exit signs are visible from any direction.
        No expired medications were noted during
        the onsite visit.
        All medications are secured from
        unauthorized access.


VA OIG Office of Healthcare Inspections                                                                3
                                    CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


 NM              Areas Reviewed (continued)                                Findings
        Personally identifiable information is
        protected on laboratory specimens during
        transport so that patient privacy is
        maintained.
        Adequate privacy is provided to patients in
        examination rooms.
        Documents containing patient-identifiable
        information are not laying around, visible, or
        unsecured.
        Window coverings provide privacy.
        The CBOC has a designated examination
        room for women veterans.
        Adequate privacy is provided to women
        veterans in the examination room.
        The information technology network
        room/server closet is locked.
        All computer screens are locked when not in
        use.
        Staff use privacy screens on monitors to
        prevent unauthorized viewing in high-traffic
        areas.
        EOC rounds are conducted semi-annually (at
        least twice in a 12-month period) and
        deficiencies are reported to and tracked by
        the EOC Committee until resolution.
        The CBOC has an automated external
        defibrillator.
        Safety inspections are performed on the
        CBOC medical equipment in accordance with
        Joint Commission standards.
        The parent facility includes the CBOC in
        required education, training, planning, and
        participation leading up to the annual disaster
        exercise.
        The parent facility’s Emergency Management
        Committee evaluates CBOC emergency
        preparedness activities, participation in
        annual disaster exercise, and staff
        training/education relating to emergency
        preparedness requirements.




VA OIG Office of Healthcare Inspections                                                                4
                                    CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 37 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 8 of 27 patients who had positive alcohol use
                                                          screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for three of five patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 16 (46 percent) of 35 RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 13 (37 percent) of 35 RN Care
       received VHA National Center for Health            Managers did not receive health coaching
       Promotion and Disease Prevention-approved          training within 12 months of appointment to
       health coaching training (most likely TEACH        PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                       5
                                    CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


2. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

3. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers receive
motivational interviewing and health coaching training within 12 months of appointment to
Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                6
                                    CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 31 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 6 (19 percent) of 31 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendation

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.




VA OIG Office of Healthcare Inspections                                                                    7
                                    CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                8
                                                                            CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                                                                     Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                   Uniques4                                      Encounters4

                                Station                 CBOC
        Location       State                Locality5               MH7         PC8      Other9        All        MH7         PC8         Other9         All
                                   #                     Size6
                                                        Very
    Lee County         FL      516BZ        Urban       Large       4,429    19,329      32,640      33,598     25,437       48,113     264,308       337,858
                                                        Very
    Bradenton          FL      516GD        Urban       Large       1,205      7,396     12,859      13,100       5,232      14,562       55,537       75,331
                                                        Very
    Sarasota           FL      516GA        Urban       Large       1,779      9,974     12,275      12,711       9,464      20,994       51,434       81,892
    Port Charlotte /
    Charlotte
    County             FL      516GE        Urban       Large       1,494      7,576      8,579        9,061      6,132      17,165       47,510       70,807
    Palm Harbor        FL      516GC        Urban       Large       1,086      6,248      7,529        7,947      5,127      18,151       30,085       53,363
    Naples/Collier
    County             FL      516GF        Urban       Large       1,061      6,020      6,001        6,677      6,035      14,693       25,752       46,480
                                                        Mid-
    Sebring            FL      516GH        Urban       Size          664      2,829      2,915       3,099       4,444       8,485       15,388       28,317
                                                        Mid-
    St Petersburg      FL      516GB        Urban       Size          479      2,143      2,176       2,511     11,458        5,613         8,680      25,751

3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                               CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
          CBOC                                                Ancillary Services12
                                     Services11                                                 Services13
 Lee County                             Dental                    Radiology                  Tele Primary Care
                                       Urology               Electrocardiography                 Tele Case
                                     Optometry              Computer Tomography                Management
                                                                               14
                                     Cardiology               MOVE! Program
                               Anti-Coagulation Clinic          Vascular Lab
                                  Gastroenterology               Social Work
                                     Orthopedics              Nuclear Medicine
                                       Podiatry                 Rehabilitation
                                    Dermatology              Magnetic Resonance
                                   Ophthalmology                   Imaging
                                  General Surgery            Prosthetics/Orthotics
                               Ear, Nose and Throat            Diabetic Retinal
                                   Endocrinology                  Screening
                                      Neurology              Pulmonary Function
                                    Neurosurgery                     Test
                                 Infectious Disease                Nutrition
                                     Nephrology                Sleep Medicine
                                                                          15
                                    Immunology                      VIST
                                     Pulmonary
 Bradenton                           Optometry                    Laboratory                 Tele Primary Care
                                        Dental                     Radiology                     Tele Case
                                     Gynecology                    Pharmacy                    Management
                                                                   Audiology
                                                                MOVE! Program
                                                                  Social Work
                                                              Electrocardiography
 Sarasota                       Medicine Specialties              Laboratory                 Tele Primary Care
                                   Gynecology                      Audiology                     Tele Case
                                 General Surgery                MOVE! Program                  Management
                                                                   Pharmacy
                                                              Electrocardiography
                                                                  Social Work
                                                                Diabetic Retinal
                                                                   Screening
                                                                    Nutrition




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

15
    The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely

disabled and visually impaired Veterans and active duty service members. 


VA OIG Office of Healthcare Inspections                                                                           10
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL

     CBOC (continued)     Specialty Care Services    Ancillary Services   Tele-Health Services
    Port Charlotte /            Optometry               Laboratory          Tele Primary Care
    Charlotte County           Orthopedics               Audiology
                               Dermatology               Pharmacy
                                Cardiology            MOVE! Program
                                                    Electrocardiography
                                                        Social Work
                                                       Diabetes Care
    Palm Harbor                     ---                 Laboratory          Tele Primary Care
                                                         Audiology
                                                         Pharmacy
                                                    Electrocardiography
                                                        Social Work
    Naples/Collier             Dermatology              Laboratory          Tele Primary Care
    County                      Cardiology               Pharmacy               Tele Case
                                                      MOVE! Program           Management
                                                      Diabetic Retinal
                                                         Screening
                                                        Social Work
    Sebring                         ---                 Laboratory          Tele Primary Care
                                                         Pharmacy
                                                      Diabetic Retinal
                                                         Screening
    St Petersburg                   ---                 Laboratory          Tele Primary Care
                                                         Pharmacy
                                                        Social Work
 




VA OIG Office of Healthcare Inspections                                                         11
                                                                         CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                                                                  Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                            
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                               12
                                                                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                    13
                                                                          CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                          CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.


VA OIG Office of Healthcare Inspections                                                                                                                   15
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       July 8, 2014

          From:        Director, Sunshine Healthcare Network (10N8)

       Subject: 	      CBOC and PCC Reviews of the Bay Pines VA Healthcare
                       System, Bay Pines, FL

             To: 	     Director, Washington DC Office of Healthcare Inspections
                       (54DC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

                       OIG Follow Up Staff (53B)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CBOC and PCC Reviews at Bay Pines VA Healthcare
          System.

       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report. Thank you!




         //original signed by://
       Joleen Clark, MBA, FACHE

       Attachment




VA OIG Office of Healthcare Inspections                                                      16
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       July 8, 2014

          From:        Director, Bay Pines VA Healthcare System (516/00)

       Subject:        CBOC and PCC Reviews of the Bay Pines VA Healthcare
                       System, Bay Pines, FL

             To:       Director, Sunshine Healthcare Network (10N8)



       1. I have reviewed and concur with the findings and recommendations in
          the report of the OIG CBOC and Primary Care Clinic review.

       2. I appreciate the opportunity for this review as a continuing process to
          improve the care to Veterans. Thank you.




         //original signed by://
       SUZANNE M. KLINKER




VA OIG Office of Healthcare Inspections                                                      17
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: 7/31/14

Facility response: As identified in the survey, CBOC providers completed 70% (19 of 27)
diagnostic assessments for patients with a positive AUD-C screening. The CBOC
providers exceed the VHA target performance measure of 62%.                      To further
improvement efforts, processes were reviewed to ensure the clinical reminder is in place
for notification of clinical staff when AUD-C screen is positive in order to complete the
appropriate assessment. Education was completed in June 2014 for Primary Care (PC)
providers to reinforce the completion of the clinical reminder for all Veterans.

Ongoing monitoring for completion of diagnostic assessments for patients with a
positive alcohol screen is monitored weekly in all primary care areas, reported monthly
to primary care staff and leadership and tracked on the Primary Care Service
Performance Improvement Plan. This monitoring is part of our routine reviews and is an
ongoing quality improvement process.

Recommendation 2. We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: 7/31/14

Facility response: The facility implemented a new clinical reminder in June 2014 that
ensures a Substance Abuse Treatment Program referral will be discussed and
documented by the provider for high risk patients with an AUD-C score 8 or higher.
Education was completed in June 2014 for Primary Care providers to reinforce the
completion of the clinical reminder for all Veterans.

Ongoing monitoring for completion of substance abuse referrals for patients with a
positive alcohol screen is monitored weekly in all primary care areas, reported monthly
to primary care staff and leadership and tracked on the Primary Care Service



VA OIG Office of Healthcare Inspections                                                      18
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL


Performance Improvement Plan. This monitoring is part of our routine reviews and is an
ongoing quality improvement process.

Recommendation 3. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: 9/30/14

Facility response: All Patient Aligned Care Team (PACT) RN Care Managers will have
Motivational Interviewing & Health Coaching training completed by August, 2014. MI
and TEACH training has been added to all new RN Care Managers orientation.
Compliance will be monitored by review of competency folders and verified by the nurse
managers within six months appointment to PACT.

Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: 10/01/14

Facility response: Providers shall complete and document medication reconciliation
using the medication reconciliation note template, as per VAHCS Memo 516-13-11-090.
Clinical service chiefs reeducated their staff in June 2014. The Chief of Staff office will
assess compliance with medication reconciliation at each episode of care where
fluoroquinolones were administered, prescribed, or modified by conducting a monthly
review of at least 30 electronic health records, from 30 unique patients, selected at
random. At least a 90% compliance rate with documentation requirements is expected.
Results of the review will be reported to the Medical Executive Committee.




VA OIG Office of Healthcare Inspections                                                      19
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Kay Foster, RN, Team Leader
Contributors            Donna Giroux, RN
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Randall Snow, JD
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      20
                           CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Sunshine Healthcare Network (10N8)
Director, Bay Pines Health Care System (516/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Gus Bilirakis, Vern Buchanan, Kathy Castor, David
 Jolly


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      21
                                CBOC and PCC Reviews at Bay Pines VA Healthcare System, Bay Pines, FL
                                                                                         Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
